IN THE
SUPREME COURT OF THE UNITED STATES

 

No:

ITALO EBARISTO NAPA MOREIRA,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

Petitioner Italo Ebaristo Napa Moreira, pursuant to Sup. Ct. R. 39.1,
respectfully moves this Honorable Court for leave to file the accompanying
petition for writ of certiorari in the Supreme Court of the United States without
payment of costs and to proceed in forma pauperis.

Petitioner previously was found financially unable to obtain counsel, and
the undersigned attorney, since the inception of trial proceedings, has served as

petitioner’s attorney appointed pursuant to the Criminal Justice Act. Therefore, in
reliance upon Rule 39.1 and 18 U.S.C. 3006A ef seq., petitioner has not attached
the affidavit which otherwise this Honorable Court would require pursuant to 28

US.C. 1746.

Respectfully submitted,

 
   

Martin A. Feigenbaum
Counsel for Petitioner Napa Moreira
Florida Bar No. 705144

P.O. Box 545960

Surfside, Florida 33154

Telephone: (305) 323-4595
Facsimile: (844) 274-0862

Email: miamivicelaw@aol.com

Surfside, Florida
July 9, 2020
